TN

COCKLE

2311 Douglas Street Le ga ] Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-125
GALE ZAMORE,
Petitioner,

Vv.
DEUTSCHE BANK NATIONAL TRUST COMPANY,
INDIVIDUALLY AND AS TRUSTEE FOR
JP MORGAN MORTGAGE ACQUISITION TRUST
2007-CH5 ASSET BACKED PASS-THROUGH
CERTIFICATES SERIES 2007-CH5,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 15th day of November, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
E. KING POOR
Counsel of Record
QUARLES & BRADY LLP
300 N. LaSalle Street, Suite 4000
Chicago, Illinois 60654
king.poor@quarles.com
(312) 715-5143

BENJAMIN B. BROWN
JOSEPH T. KOHN
QUARLES & BRADY LLP
1395 Panther Lane, Suite 300
Naples, Florida 34109

(239) 659-5026

Attorneys for Respondent

Subscribed and sworn to before me this 15th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . . & Chl
State of Nebraska . ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38778
Bruce Jacobs

Jacobs Legal, PLLC

Alfred I. Dupont Building

169 East Flagler Street, Suite 1620
Miami, Florida 33131

(305) 358-7991
zaim@jakelegal.com

Counsel for Petitioner
